r.

WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

JAN 0 9 2020
OFFICE OF THE CLERK'

No. 19-752
Randy Rudel
(Respondent)

Hawaii Management Alliance Association v.
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless

one is requested by the Court.
Please check the appropriate boxes:
IV Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
11 I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
January 9, 2020

Date:
(Type or print) Name

Allen K. Williams
0 Ms.

VMr.

Firm

Trecker Fritz & Williams

Address

820 Mililani Street, Suite 701

City & State Honolulu, Hawaii
Phone

0 Mrs.

0 Miss

Zip 96813

808-528-3900

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: David J. Minkin & Jordon J. Kimura - Counsel of Record for Petitioner

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

RECEIVED
JAN 1 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF THE UNITED STATES
No. 19-752
Hawaii Management Alliance Association
(Petitioner)

Randy Ruder
(Respondent)

v.

DECLARATION OF PROOF OF SERVICE
I HEREBY CERTIFY that, in accordance with Rule 29, of the Rules of the Supreme
Court of the United States, on January 9, 2020, a copy of Respondent Randy Rudel's WAIVER
was duly served upon the Petitioner, through its Counsel of Record, by hand delivery as follows:
VIA HAND DELIVERY
David J. Minkin
Jordon J. Kimura
McCorriston Miller Mukai MacKinnon LLP
Five Waterfront Plaza, 4th Floor
500 Ala Moana Boulevard
Honolulu, Hawai'i 96813
Counsel of Record of Petitioner
Hawaii Management Alliance Association
I declare, pursuant to Rule 29(5)(c), of the Rules of the Supreme Court of the United
States, and 28 U.S.C. ยง 1746, under penalty of perjury that the foregoing is true and correct.
Executed in Honolulu, Hawaii on January 9, 2020.

Allen K. Williams
Counsel for Respondent
Randy Rudel

RECEIVED
JAN 14 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

